                                     SOCIAL SECURITY
MEMORANDUM

Date:   July 31, 2008                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Evaluation of the Knowledge Management Website (A-13-08-30117)



        The attached final report presents the results of our review. Our objective was to
        examine the oversight and use of the Social Security Administration's Knowledge
        Management website.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
QUICK RESPONSE
 EVALUATION
Evaluation of the Knowledge
  Management Website

       A-13-08-30117




         July 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                 Background
OBJECTIVE
Our objective was to examine the oversight and use of the Social Security
Administration's (SSA) Knowledge Management (KM) website.

BACKGROUND
SSA reported that in May 2003, the KM Intranet website was established to capture and
share the expertise of its workforce. The website defined KM “…as preserving the
experiences and knowledge of experienced workers, and making the experiences and
knowledge available to everyone.” The Agency categorized KM as

   •   transferring knowledge from more experienced to less experienced employees;
   •   sharing knowledge and experiences;
   •   generating knowledge;
   •   getting the right information to people when they need it; and
   •   sharing best practices for continuous improvement.

In addition to preserving the experience and knowledge of experienced workers, SSA
reported there were many business reasons for KM activities. Specifically, the Agency
believed KM would help facilitate

   •   retaining expertise;
   •   helping an organization be more efficient;
   •   reducing time looking for information;
   •   helping one avoid replicating the work done by others; and
   •   enabling leaders to make better decisions, drawing upon the experience of
       others and examining a wider range of alternatives.

The Office of the Deputy Commissioner for Human Resources, Office of Training is
responsible for oversight of the KM website. Each KM effort listed the following
information: project name; project identification number; project component; project
contact information; and a project summary. As of May 2008, there were 14 SSA
components and 268 KM projects listed on the Intranet website. See the chart below
for more information.




Evaluation of the Knowledge Management Website (A-13-08-30117)                          1
                           SSA Components and KM Projects as of May 2008
                 200                                                            192
                 175
                 150
   KM Projects



                 125
                 100
                  75
                                                          43
                  50                                                 24
                  25   0    1    0   0    0       5   0         0           0           2     1
                   0
                      SO

                        C

                                                 IG
                        C



                       IO
                        T




                                                                              CO
                                          D R




                                                                               CP

                                                                               CS
                                                FM



                                                CA
                                                  P
                                                 M
                      C
                      O




                     G




                                              CH
                                               IS
                                               M
                                               O
                     C
                    A



                    C




                                                                             D

                                                                             D
                    O




                                            CB



                                             CL

                                                                           D
                   O




                                             O
                                            CD
                   O



                   O




                                            D
                                              CC



                                          D
                                          D
                                              D

                                                  SSA Component

Note 1: The 14 Agency components identified in the chart are the Offices of the Commissioner (OC);
Chief Actuary (OCACT, also identified on the KM website as OACT); Chief Information Officer (OCIO);
Chief Strategic Officer (OCSO); General Council (OGC); Inspector General (OIG); Deputy Commissioner
for Communications (DCCOMM); Deputy Commissioner for Retirement and Disability Policy (DCRDP,
formerly known as Office of the Deputy Commissioner of Disability and Income Security
Programs/DCDISP and Deputy Commissioner for Policy (DCP)); Deputy Commissioner for Budget;
Finance and Management (DCBFM); Deputy Commissioner for Human Resources (DCHR); Deputy
Commissioner for Legislative and Congressional Affairs (DCLCA); Deputy Commissioner for Operations
(DCO); and Deputy Commissioner for Systems (DCS).

For our evaluation, we selected a non-statistical sample of 10 projects to review. From
both OACT and DCS, we examined one KM project. We examined two DCP projects.
In addition, we reviewed two projects from each of the following Agency components:
DCRDP (formerly known as DCDISP), DCHR, and DCO. We excluded projects of the
Office of the Inspector General from our review. The focus of our effort was the Office
of Training’s oversight and employees’ use of the KM website. See Appendix B, Scope
and Methodology, for additional information.




Evaluation of the Knowledge Management Website (A-13-08-30117)                                    2
                                                  Results of Review
Our examination of the oversight and use of the KM website found (1) the website had
limited management controls; (2) information listed for KM projects was not accurate;
and (3) information on the use of the website was not collected.

KM WEBSITE HAD LIMITED MANAGEMENT CONTROLS

Management controls were limited concerning the information listed on the website for
the KM efforts. The Office of Training issued a memorandum on May 7, 2003 to all
executive officers requesting “…help in providing information on SSA’s efforts in
‘Knowledge Management’. With the information you provide, we can compile an
inventory of our ‘Knowledge Management’ based initiatives and make this inventory
available to everyone.” We contacted staff in the Office of Training to identify the
management controls for KM oversight. Staff explained the information on the KM
website was not monitored. According to Office of Training staff, anyone with access to
the Intranet website can add, change or update information. It was explained “…the site
remains outdated and is not regularly maintained.” Staff also indicated a request must
be made to the Office of Training to remove a KM project from the website.

Additionally, our review found duplicate projects on the KM website. We identified some
KM projects that had the same information listed on the website but had different project
identification numbers.

INFORMATION FOR KM PROJECTS WAS NOT ACCURATE

The information listed for most of the KM projects we examined was inaccurate. As of
May 12, 2008, the homepage of the KM website did not have language that indicated
the data listed on the site was unverified or had limited use. We found the KM projects
had outdated or obsolete information. Of the 10 projects reviewed, we found 9 had
inaccurate information. For example, one project discussed a “new” automated
information system intended to replace an existing system. However, SSA staff
reported the new system was installed in 2004. We also found a project that discussed
the establishment and duties of a specific Agency committee. However, that committee
no longer existed. The Agency agreed with our observation that the nine projects had
inaccurate information.




Evaluation of the Knowledge Management Website (A-13-08-30117)                          3
INFORMATION FOR KM WEBSITE USE WAS NOT COLLECTED

The Office of Training did not collect information concerning KM website use. We
requested information regarding how often Agency employees accessed the website.
Agency staff explained information regarding access to the website and use of the
information contained on the website was not collected.

During our review, we also found that access to the KM website was no longer
available. As of June 2, 2008, Agency employees could no longer access the KM
website from SSA’s Intranet homepage. We found the automated link to the website
had been removed “to slow down traffic.” No further explanation was provided. On
June 23, 2008, we attempted to use the same search engine to access the KM website.
The KM website could not be accessed. In addition, we tried other search engines to
gain access to the website and were not successful.




Evaluation of the Knowledge Management Website (A-13-08-30117)                      4
                                  Matters for Consideration
Based on the results of our review, we believe the KM website is not functioning as
intended. Further, inaccurate or unverified information on the website could cause
Agency employees to make erroneous decisions or take inappropriate actions. The
Agency should evaluate whether the website will remain operational. If it remains
operational, the Agency should ensure that the information is accurate and up to date;
or include qualifying language regarding the limited utility of the information.

SSA agreed with the findings of our review, and indicated “Various individual
component KM activities have overtaken the usefulness of the KM website. As such,
we have taken the website down to prevent any confusion.”




Evaluation of the Knowledge Management Website (A-13-08-30117)                           5
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Evaluation of the Knowledge Management Website (A-13-08-30117)
                                                                   Appendix A

Acronyms

DCBFM           Deputy Commissioner for Budget, Finance and Management

DCCOMM          Deputy Commissioner for Communications

DCDISP          Deputy Commissioner for Disability and Income Security Programs

DCHR            Deputy Commissioner for Human Resources

DCLCA           Deputy Commissioner for Legislative and Congressional Affairs

DCO             Deputy Commissioner for Operations

DCP             Deputy Commissioner for Policy

DCRDP           Deputy Commissioner for Retirement and Disability Policy

DCS             Deputy Commissioner for Systems

KM              Knowledge Management

OC              Office of the Commissioner

OCACT           Office of the Chief Actuary

OCIO            Office of the Chief Information Officer

OCSO            Office of the Chief Strategic Officer

OGC             Office of General Counsel

OIG             Office of the Inspector General

SSA             Social Security Administration




Evaluation of the Knowledge Management Website (A-13-08-30117)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:
•   Identified Social Security Administration (SSA) components that had information
    listed on the Knowledge Management (KM) website.
•   Examined the KM information on the website to determine its reliability.
•   Interviewed appropriate Agency staff to gain an understanding of the:
    o purpose and goals of the KM website and
    o management controls for the establishment and maintenance of the website and
      the information provided on the website.
•   Collected information on use of website.
•   Identified an alternate mechanism for accessing the KM website.
•   Selected 10 KM projects to examine.
    o Of the 14 SSA components identified on the KM website, 7 had no information
      listed for KM projects. For the remaining 7, we reviewed KM projects for
      6 components. While the Office of the Inspector General was one of the
      remaining seven components, we excluded its projects from our review. The
      focus of our effort was the Office of Training’s oversight and employees’ use of
      the KM website.
    o For 6 components, we examined a total of 10 KM projects. The information
      reviewed was listed on the website as of May 2008.
           Reviewed all projects listed on the website for three SSA components:
            the Offices of the Chief Actuary, Deputy Commissioner for Systems, and
            Deputy Commissioner for Policy. A total of four projects were reviewed.
           Reviewed two projects listed on the website for each of three SSA
            components: the Offices of Retirement and Disability Policy, Deputy
            Commissioner for Human Resources, and Deputy Commissioner for
            Operations. We reviewed two projects related to the disability process;
            two projects providing assistance to Agency employees and two projects
            pertaining to field office operations. A total of six projects were reviewed.
We performed our review from May through June 2008 in Baltimore, Maryland. The
entity reviewed was the Office of the Deputy Commissioner for Human Resources. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.




Evaluation of the Knowledge Management Website (A-13-08-30117)
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, Evaluation Division

   Tracey Edwards, Acting Audit Manager, Evaluation Division

Acknowledgments
In addition to those named above:

   Janet Stein-Pezza, Senior Program Analyst

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-08-30117.




Evaluation of the Knowledge Management Website (A-13-08-30117)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
